No. 21-194
IN THE

Supreme Court of the United States
California Trucking Association, Inc.,
Ravinder Singh, and Thomas Odom,
Petitioners,
v.
Robert Bonta, in His Official Capacity as
the Attorney General for the State of
California, et al.,
Respondents.
CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the bar of this Court and
that the Brief for The Minnesota Trucking Association, as Amicus Curiae
Supporting Petitioners complies with the typeface requirements of Supreme Court
Rule 33.1(b), being prepared in Century Schoolbook 12 point for text and 10 point for
footnotes, and this brief contains 5,510 words and complies with the word limitation
established by Rule 33.1(g)(x) of the Rules of this Court.
Dated: September 9, 2021

Steven A. DiTullio

